Supreme Court Litigation Clinic
Crown Quadrangle
559 Nathan Abbott Way
Stanford, CA 94305-8610
Tel 650 724.1900
Fax 650 723.4426
sup.ct.clinic@law.stanford.edu

June 6, 2019

Via Federal Express
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Walid Jammal, et al. v. American Family Insurance Co., et al.
No. 18A-____

Dear Mr. Harris,
Please find an original plus two (2) copies of Walid Jammal’s Application
for Extension of Time Within Which to File a Petition for Writ of Certiorari
in the above-referenced matter. This Application is filed pursuant to Rule 22,
and pertains to a decision arising out of the United States Court for the Sixth
Circuit, and so it is addressed to Justice Sotomayor. A Certificate of Service is
also included with this filing.
Please also find enclosed a copy of the application’s face-sheet, which we
request that you file-stamp and return to our offices in the self-addressed,
stamped envelope provided.
Thank you very much for your time and assistance in this matter.
Very truly yours,

Brian H. Fletcher

Counsel for Applicant
cc:

All Counsel

Community Law ♣ Criminal Defense ♣ Environmental Law ♣ Immigrants' Rights
International Human Rights and Conflict Resolution ♣ Juelsgaard Intellectual Property and Innovation
Organizations and Transactions ♣ Religious Liberty ♣ Supreme Court Litigation ♣ Youth and Education Law Project

